CARSON J. TUCKER, JD, MSEL
Appeals, Legal Research,
Insurance Coverage, Defense and
Recovery, and Direct Personal
Legal Representation

ATTORNEY AND COUNSELOR AT LAW
DPT #3020
1250 W. 14 MILE ROAD
TROY, MI 48083-1030
WWW.LEXFORIPLLC.COM

___________________
cjtucker@lexfori.org
Direct +17348879261
Main +17348879260
Fax +17348879255

Admitted to Practice in the
United States Supreme Court,
Sixth Circuit Court of Appeals,
United States Courts for the
Eastern and Western Districts,
and the State of Michigan

April 15, 2021
Via First Class Mail or As Directed
Scott S. Harris, Esq.
Clerk of the United States Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Attn: Clerk of the United States Supreme Court
Re:

Crittenden v. Crittenden, Petition for Writ of Certiorari to the Supreme Court of Georgia

Our File No.: 8240-121120
Dear Mr. Harris:
I enclose for docketing a petition for a writ of certiorari to the Georgia Supreme Court in
the above-mentioned matter. We are filing this in compliance with the March 19, 2020 and April
15, 2020 orders of the Court, regarding automatic extension of time and format of the petition,
respectively.
Also included is an appendix, a certificate of service and a certificate of word count, as
well as the filing / docketing fee of $300.
Please do not hesitate to contact me if you have any questions or require additional
information regarding this filing. At present, we are not receiving and processing regular mail due
to COVID-19, and we are asking our clientele to communicate by email or phone if at all possible.
Sincerely,

Enclosure(s)
CC: Counsel for Respondent on COS

Carson J. Tucker, JD, MSEL

